HHS/OIG - Audit,"Review of Managed Care Additional Benefits at NYLCare Health Plans of Southwest, Inc. for Calendar Year 2000,"(A-06-00-00073)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Managed Care Additional Benefits at NYLCare Health Plans
of Southwest, Inc. for Calendar Year 2000," (A-06-00-00073)
March 7, 2002
Complete
Text of Report is available in PDF format (1.12 MB).  Copies can
also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to assess whether additional benefits proposed
in NYLCare's Contract Year (CY) 2000 adjusted community rate proposal (ACRP)
were available to Medicare beneficiaries at reasonable costs and as advertised,
and that these benefits were both credible and properly valued.  We found
that, during 2000, NYLCare provided additional benefits as proposed in its
CY 2000 ACRP and as advertised in its marketing brochures.  We also found
that NYLCare  provided prescription drugs to Medicare enrollees at reduced
rates by taking advantage of discounts negotiated with independent pharmacies
that dispensed the prescription drugs.  However, our review disclosed
problems with the prescription drug benefit component on NYLCare's CY 2000
ACRP that impacted both the Medicare beneficiaries enrolled in the plan, as
well as NYLCare itself.